No. 19-840

 

 

In THE
Supreme Court of the United States

CALIFORNIA, ET AL.,

Petitioners,
v.

TEXAS, ET AL.,
Respondents.

ON WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT

OPENING BRIEF FOR THE UNITED STATES
HOUSE OF REPRESENTATIVES AS
RESPONDENT SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,950 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 6, 2020.

 

Wilson-Epes Printing Co., Inc.
